<html>
<title> - PROTECTING OUR CHILDREN</title>
<body><pre>[Senate Hearing 112-841]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-841

 
 PROTECTING OUR CHILDREN--THE IMPORTANCE OF TRAINING CHILD PROTECTION 
                             PROFESSIONALS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON ADMINISTRATIVE
                        OVERSIGHT AND THE COURTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2012

                               __________

                          Serial No. J-112-77

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
86-011                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

        Subcommittee on Administrative Oversight and the Courts

                   AMY KLOBUCHAR, Minnesota, Chairman
PATRICK J. LEAHY, Vermont            JEFF SESSIONS, Alabama
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
SHELDON WHITEHOUSE, Rhode Island     MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
         Paige Herwig, Democratic Chief Counsel/Staff Director
           Danielle Cutrona, Republican Acting Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     1
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3

                               WITNESSES

Witness List.....................................................    33
Hanes, Melodee, Acting Administrator, Office of Juvenile Justice 
  and Deliquency Prevention, U.S. Department of Justice, 
  Washington, DC.................................................     4
    prepared statement...........................................    34
Vieth, Victor, Executive Director, Natinal Child Protection 
  Training Center, Winona State University, Winona, Minnesota....    12
    prepared statement...........................................    41
Johnson, Michael, Director of Youth Protection, Boy Scouts of 
  America, Irving, Texas.........................................    14
    prepared statement...........................................    76
Newlin, Chris, Executive Director, National Children's Advocacy 
  Center, Huntsville, Alabama....................................    16
    prepared statement...........................................    81
Smith, Stephanie, Southern Regional Director, National Child 
  Protection Training Center, Northwest Arkansas Community 
  College, Bentonville, Arkansas.................................    17
    prepared statement...........................................    90

                    QUESTIONS FROM COMMITTEE MEMBERS

Questions for Melodee Hanes from Senator Grassley................    94
Questions for Victor Vieth from Senator Grassley.................    95
Questions for Michael Johnson from Senator Grassley..............    96
Questions for Chris Newlin from Senator Grassley.................    97
Questions for Stephanie Smith from Senator Grassley..............    98

                         QUESTIONS AND ANSWERS

Responses of Melodee Hanes to questions submitted by Senator 
  Grassley.......................................................    99
Responses of Victor Vieth to questions submitted by Senator 
  Grassley.......................................................   103
Responses of Michael Johnson to questions submitted by Senator 
  Grassley.......................................................   108
Responses of Chris Newlin to questions submitted by Senator 
  Grassley.......................................................   117
Responses of Stephanie Smith to questions submitted by Senator 
  Grassley.......................................................   119

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

APSAC, Winter/Spring 2012, article...............................   122
Center Piece, Volume 2, Issue 5, 2010, NCPTC, article............   126
Center Piece, Volume 1, Issue 9, 2009, NCPTC, article............   132
National Center for Prosecution of Child Abuse, Volume 22, Number 
  1, 2009, article...............................................   136
OJJDP, February 2000, bulletin: Overview of the Portable Guides 
  to Investigating Child Abuse: Update 2000 by Janet McNaughton. 
  Link: http://www.brycs.org/documents/upload/portableguides.pdf.   138


 PROTECTING OUR CHILDREN: THE IMPORTANCE OF TRAINING CHILD PROTECTION 
                             PROFESSIONALS

                              ----------                              


                        WEDNESDAY, MAY 23, 2012

                               U.S. Senate,
  Subcommittee on Administrative Oversight and the 
                                            Courts,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 10:09 a.m., 
Room SD-226, Dirksen Senate Office Building, Hon. Amy 
Klobuchar, Chair of the Subcommittee, presiding.
    Present: Senators Franken and Grassley.

 OPENING STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM 
                     THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you, everyone, for being here 
today. And I am so honored to have the Ranking Member of the 
Senate Judiciary Committee, Senator Grassley, here today, as 
well.
    Today we are going to be examining something that is quite 
literally a life-and-death issue, child abuse, more 
specifically. We are going to be focused on the need to provide 
adequate training to people across the country who work with 
children every day, people who are on the front lines 
protecting our children, people who need to be prepared to 
prevent, detect, and respond to cases of child abuse. This 
includes doctors, law enforcement officers, court employees, 
teachers, social workers, family lawyers, and clergy--anyone 
who interacts regularly with children from a position of 
responsibility.
    These professionals represent far-ranging occupations, but 
they are also potential allies in the fight against child 
abuse.
    I spent eight years as chief prosecutor in Hennepin County, 
which is Minnesota's largest county, and I saw all types of 
horrible crimes, but it really was the faces of the children 
that stick with you the most. Those that were affected by abuse 
really stick out in my mind, whether they were direct victims 
of abuse or because they lived in violent homes and it affected 
them forever and ever.
    It was heartbreaking to see these children. So many of 
them, after they would be witnesses to horrible crimes or 
themselves victims of horrible crimes, would continue to be 
proud of how they would do in school, continue to work to 
pretend everything was normal when we knew it was not. And so 
that is why we are so focused on this issue of making sure that 
we are training people right who work with these kids every day 
so we can prevent this from happening to other children and 
that we can do our best to help the kids who are victims.
    I think of the two-year-old child who died in Minneapolis, 
a case that we had. The police found him naked on the bathroom 
floor, malnourished, dehydrated, and having suffered blunt 
force injury; or Benjamin Mitchell, who was just two months old 
when he died because his mom just stopped feeding him; Kyle 
Lawver from Minnetonka, Minnesota, who was three years old when 
he died from a skull fracture and other injuries he received 
from his mom's boyfriend.
    It is just impossible for most of us to imagine this in our 
homes, but, sadly, it happens every day. But we also know that 
there are good people who are in a position to help every 
single day, as well. All the people that I mentioned earlier, 
those occupations, they are there on the front lines.
    Sometimes they are called child protection professionals, 
sometimes mandated reporters, because they are required by law 
to report abuse. There is no doubt, in my mind, that 
practically all of these people want to do everything they can 
and to do the right thing to stop kids from being exploited.
    But there is an issue, and, that is, sometimes well-meaning 
professionals, well trained in their respective fields, are not 
adequately trained to recognize or confront child abuse. 
Sometimes they are trying to do the right thing, but it is not 
the right thing in terms of getting a child to be a witness, in 
terms of getting a child to tell the truth, in terms of trying 
to figure out what we can do to stop the abuse.
    Our witnesses today have dedicated large parts of their 
careers to child protection issues. They have investigated 
child abuse cases, prosecuted the criminals who prey on 
children, and work to train child protection professionals in 
the various skills needed to address child abuse.
    I am proud that the National Child Protection Training 
Center is in Winona, Minnesota, a beautiful town, not too far 
from Iowa. Right? That is the most important part about it for 
today.
    [Laughter.]
    Senator Klobuchar. But it also is a beautiful river town 
and the home of Winona State, which is a great college that we 
are very proud of in Minnesota. I have visited it many times. 
And we are going to be hearing from two people affiliated with 
the National Child Protection Training Center on our second 
panel.
    Among its initiatives, the training center has developed 
curriculums to be used at colleges, law schools and medical 
schools, and has directly trained thousands of professionals on 
child protection.
    We will also hear from a representative of the National 
Children's Advocacy Center in Huntsville, Alabama. The NCAC has 
also made great strides in the fight against child abuse since 
its founding in 1985 and holds the National Symposium on Child 
Abuse every year.
    The Department of Justice is, of course, very involved in 
protecting our Nation's children, as well, through the Office 
of Juvenile Justice and Delinquency Prevention and other 
offices within the Department.
    But as I am sure we will hear from our witnesses, there is 
much work left to be done. That is why I am working on 
legislation that would seek to build on the efforts of NCPTC in 
Minnesota, the National Children's Advocacy Center, and the 
Department of Justice and others.
    I believe there are very few issues that get people more 
concerned when they look at the real facts. It is always easy 
to talk about the numbers and to look at the trends and to look 
at what is happening, but when you actually see the faces of 
these children, I know what they have been through and hear 
their stories, you get committed all over again to making sure 
that we are doing everything we can to have adults trained the 
right way so that they can detect this and actually help these 
children.
    So with that, I turn it over to our colleague from Iowa, 
not far from Winona, Senator Grassley.

   STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM IOWA

    Senator Grassley. The effects of child abuse are profound. 
They have far-reaching consequences. Abuse, if ignored, can 
harm the health and well being of our young people. Exposure to 
abuse and violence at any early age can affect a child 
throughout their entire lifetime.
    Research has shown, and as our experts here today will 
echo, that preventing and intervening in child abuse is a key 
to improving the world in which we live and maintaining strong 
and healthy families.
    We are discussing ways that we can enhance training to help 
child protection professionals better detect, report and 
process child abuse. It is an opportunity to listen to each 
other, to understand what programs exist and learn how efforts 
can be improved.
    The hearing will mostly discuss programs under Judiciary 
Committee jurisdiction. There are many worthwhile programs that 
provide training to help state and local entities, law 
enforcement, juvenile justice, and health care professionals.
    There are programs designed to help communities combat 
human trafficking and protect children from online sexual 
predators. The Amber Alert Act program is a great public/
private partnership targeting efforts to respond to child 
abduction and missing child cases.
    However, there are other programs that help victimized 
children who have, unfortunately, been taken from their home 
that fall outside of this Committee's jurisdiction, but are 
still very important for the purposes of this discussion.
    One example, the Court Improvement Program supports states 
in their efforts to improve the way they handle children who 
enter the child welfare system. This funding, authorized under 
the Social Security Act, supports efforts to improve the 
quality of legal representation for children, to help reduced 
caseloads and update systems to be more efficient.
    The States' highest courts collaborate with child welfare 
agencies, and, together, work to achieve safe, stable, and 
permanent homes for children.
    I raise the issue of foster care because these young people 
in our child welfare system are most vulnerable to abuse. Three 
years ago, I helped, along with Senator Landrieu, establish the 
Senate Caucus on Foster Youth. The caucus is an avenue to bring 
experts together, raise awareness about the challenges faced by 
children in the foster care system, including issues 
surrounding educational stability, substance abuse, and sexual 
exploitation.
    We have heard from youth and we have learned from experts 
on ways to improve how we deal with child abuse and neglect 
cases that occur in that environment.
    This month of May is the designated month for foster care 
youth. It is fitting that we are having this hearing today to 
discuss improvements to our prevention and intervention efforts 
of all children, including foster youth.
    While these programs are vital to ensuring the safety of 
children, that does not mean that we should simply continue to 
authorize programs without serious review. Given the potential 
for duplication and overlap among programs, it is important 
that we discuss opportunities to reduce this duplication and 
overlap so we get more for our money. Doing so will ensure that 
the limited taxpayers' resources available will help as many 
children as possible.
    These programs are vital to protecting children from 
victimization, but any dollar that falls through the cracks or 
is misspent is a dollar that takes away from those that need 
help. This is especially important in the current budget 
environment.
    I am glad to have Melodee Hanes here, acting Administrator 
of the Department of Justice Office of Juvenile Justice and 
Delinquency Prevention. She has a distinguished background that 
includes working in Iowa for a long period of time, serving as 
an assistant county attorney in Polk County. She has had an 
immense impact on children throughout the country, including 
many in Iowa, and is dedicated to helping ensure that they are 
not forgotten.
    I also look forward to hearing the from other distinguished 
witnesses.
    Thank you. And welcome, Melodee.
    Senator Klobuchar. Well, thank you very much. I was going 
to do the introduction of Melodee Hanes, but Senator Grassley 
has done such a good job. I would just, again, reiterate that 
she is the acting Administrator in the Justice Department's 
Office of Juvenile Justice and Delinquency Prevention.
    We are just glad to have her here and glad that she has 
such a distinguished career in prosecuting in Iowa, as well as 
in Montana.
    So thank you very much. Thanks for being here.

  STATEMENT OF MELODEE HANES, ACTING ADMINISTRATOR, OFFICE OF 
JUVENILE JUSTICE AND DELINQUENCY PREVENTION, U.S. DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Ms. Hanes. Thank you very much. Chairwoman Klobuchar, 
Ranking Member Grassley, thank you so much for the opportunity 
to be here today.
    As indicated, and for point of record, I am Melodee Hanes. 
I am the acting Administrator for the Office of Juvenile 
Justice and Delinquency Prevention at the Department of Justice 
and within the Office of Justice Programs.
    You have asked that I address the specific issue today of 
training for child protection professionals to recognize and 
respond to cases of child abuse. OJJDP has done much good work 
in that arena, and I am very pleased to be able to share that 
with you today.
    As we talk about child abuse investigation and prosecution, 
it is most appropriate to acknowledge that today we are 
commemorating National Missing Children's Day.
    OJJDP's mission is to provide national leadership and 
resources to respond to the needs of all youth who come into 
contact with the juvenile justice system. This means all kids 
along this spectrum, children who are on the front end, who are 
victims of abuse, neglect, exploitation, but, also, children 
who are on the back end of that spectrum who commit acts that 
cause them to fall into the criminal justice system.
    And what we have learned through 38 years at OJJDP, through 
our research, through our programs, through our experience, is 
that these are all the same kids, the ones on the front end and 
the ones that end up in the system.
    Studies indicate 55 percent of children who are abused or 
neglected are at risk to be arrested as juveniles; 96 percent 
are at risk of committing violent crimes.
    With statistics like this, it seems only a matter of common 
sense that the best practices in the investigation and 
prosecution of child abuse on the front end is going to go a 
long ways to save lives and resources on the back end.
    I can assure you, from my personal experience as a child 
abuse prosecutor for many years in Iowa and then in Montana, 
that effective multi-disciplinary investigations and 
prosecutions of child abuse by specifically trained 
professionals save lives.
    That is why excellent programs, like the National Child 
Protection Training Center at Winona State University in 
Minnesota, are so critical to this field.
    In fact, there were many times in the heat of battle that I 
would call Victor Vieth, when he was the director of the 
National Center for the Prosecution of Child Abuse, for a 
lifeline to help me in matters that were beyond my expertise.
    The research and work that we have done over the years at 
OJJDP focuses on finding the best practices through evaluation 
and science to really know for a fact what works and what does 
not work. It is our Congressional mandate at OJJDP, then, to 
share that information with the field through training.
    We have done just exactly that with regard to investigation 
and prosecution of child abuse cases, and I am happy to say we 
have supported training in the field to law enforcement 
officers, prosecutors, judges, and child advocates.
    Our training covers the whole spectrum of important topics 
regarding investigation and prosecution of child abuse. It 
includes the investigation and prosecution of physical abuse, 
of neglect, of sexual abuse, and identification and assistance 
to children who are victims of commercial sexual exploitation.
    We have provided training on the investigation and 
apprehension of perpetrators of Internet crimes against 
children. And we have assisted in training for search and 
recovery of missing children.
    We provide these training opportunities to child abuse 
professionals through several of our initiatives. And I cannot 
go into detail about all of them, but I would like to mention 
them.
    Defending childhood: a significant and major initiative of 
this attorney general to reduce the incidence of children's 
exposure to violence by encouraging communities to work 
together collaboratively, in a multi-disciplinary fashion, to 
reduce exposure to violence.
    The Internet Crimes Against Children Task Forces: There are 
61 that we support across the United States and territories.
    The National Center for Missing and Exploited Children: the 
Congressionally designated resource center to help in the 
investigation of children who are missing or exploited.
    Amber Alert, as was referenced in your opening statement: 
the nationwide initiative that requires states to implement and 
maintain a plan to deal with missing children, as well as the 
model courts program and our Tribal Youth Program to provide 
best practices in Indian country for the investigation and 
prosecution of child abuse.
    Even though we have limited budgets and the constraints on 
funding have caused us to tighten our belts, OJJDP programs 
aimed at enhancing the prosecution of child abuse cases and 
protecting this Nation's children are a top priority of this 
Attorney General.
    It is our firm commitment at OJJDP to continue this work 
despite the challenges because it is our belief that working 
together, we can make a difference for America's children.
    Thank you.
    [The prepared statement of Ms. Hanes appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much.
    Senator Grassley, do you want to start with questions?
    Senator Grassley. That is nice of you. Thank you very much.
    You testified that OJJDP currently supports nearly 50 
projects that provide multi-disciplinary training on a broad 
range of child protection issues.
    I would like to know how the Department determines if these 
projects are successful and how it takes what is learned and 
shares it with others.
    Does DOJ conduct an internal audit or audits to ensure that 
grant recipients are using evidence-based practices for 
responding to child abuse?
    Ms. Hanes. Senator, we, as I indicated, have, obviously, 
tight budget constraints in these days. We want to make the 
best use of every single dollar, and implementing performance 
measures with every one of our grants is something that we do 
as a matter of course at OJJDP.
    But it is also particularly a focus of this Attorney 
General to rely on those things that work through robust 
evaluation, through science, that can tell us specifically the 
programs that work and those that do not.
    A good example would be the Zero-to-Three courts that I 
think, Senator Grassley, you assisted in obtaining 
discretionary funding for in Polk County, Iowa. We know through 
evidence and research and performance measures in that program 
that, in fact, it does work and improves the outcomes for young 
children that go into foster care.
    So it is a top priority of this Department that we rely on 
science-based programming, and then it is our job to 
disseminate that to the field.
    Senator Grassley. Do you know of any consolidation or, 
maybe better, are there any opportunities for consolidating any 
of the programs under your purview with other Federal funding 
initiatives?
    Ms. Hanes. Yes.
    Senator Grassley. And I would say efficiency purposes 
maybe.
    Ms. Hanes. Absolutely. And, again, because we have 
tightening budgets, we have looked for ways to really leverage 
with other divisions within the Department. A great example is 
Defending Childhood. That is targeted at reducing children's 
exposure to violence.
    We released study findings in 2009 indicating that 60 
percent of children in America are exposed to violence. To 
address this problem, we worked very closely with the Office of 
Violence Against Women and Community-Oriented Policing, the 
Office of Victims of Crime, and we sat down together, 
identified our individual funding streams.
    For example, at OJJDP, this targeted toward the courts. At 
OVW, their funding stream is targeted toward kids who are 
exposed to violence in a domestic violence situation.
    We pooled our various streams of funding to complement each 
other into a river of funding for one primary objective, and 
that is to reduce children's exposure to violence. We worked 
together to draft, together, a solicitation. It was awarded to 
eight sites. And together, I am happy to say that these 
agencies still meet as one to make sure that there is proper 
oversight and implementation of the project.
    Senator Grassley. On another issue, since teachers are 
required by law to report suspected child abuse and they, 
obviously, at least nine months out of the year, observe 
students every day and are in a position to notice changes, 
could you tell me how you think how effective are teacher 
reporting laws and what additional training may be necessary to 
provide to teachers to ensure that they report suspected child 
abuse to the proper authorities?
    Ms. Hanes. Mandatory child abuse reporting laws were really 
the turning point for the onset of prosecution and 
investigation of child abuse cases. The importance of those 
laws cannot be overstated. And the training of teachers is, in 
part, our responsibility, along with the other Federal agencies 
that we work with, to assure that it is state-of-the-art 
training to help teachers identify, to properly understand the 
dynamics of children who are neglected or abused or being 
exploited, and to make the proper reports.
    Senator Grassley. Thank you.
    Senator Klobuchar. Thank you very much, Senator Grassley.
    Welcome, Ms. Hanes. Thanks for being here.
    First of all, I know that the funding for the Office of 
Juvenile Justice and Delinquency Prevention has been reduced in 
recent years. How have the cuts affected your ability to train 
child protection professionals?
    Ms. Hanes. Thank you, Senator. We have seen a reduction of 
50 percent since the day I walked in the door in 2009. That is 
a significant reduction in funding.
    We have had to make incredibly difficult choices about what 
we are able to fund and what we are not. And our inability to 
fund some programs does not reflect on the fact that they are 
excellent or state-of-the-art. It is just simply a limited 
amount of resources.
    So we have experienced a significant reduction in what we 
are able to do. The good news is we have learned to do business 
a bit differently and we have started to leverage private 
partnerships.
    We learned last year that 60 percent of students in Texas 
were expelled or suspended at least once, and the Attorney 
General made it a priority to address that issue, because those 
kids then tend to channel into the juvenile justice system.
    We were able to form new partnerships we have never done 
before with Atlantic Philanthropies, with the California 
Endowment, as well as with the Department of Education.
    So we have learned to do more with less. It has been 
difficult and challenging and restricted our ability to provide 
proper training.
    Senator Klobuchar. Last week at our Judiciary Committee, 
FBI Director Muller testified and I discussed with him the 
resources the agency, FBI, dedicates to child protection, 
including child abduction rapid deployment teams, the Innocence 
Lost national initiative, and the Innocence Images national 
initiative.
    We found out there that the FBI has only four expert child 
forensic interviews. So they are in a lot of demand across the 
country. They do good work, but there are only four of them.
    I know you are not at the FBI, but do you think that the 
DOJ offices, including the FBI, given those numbers, and, also, 
other segments of the department, could benefit from broader 
collaboration with places like the National Child Protection 
Training Center and the National Children's Advocacy Center? 
Because I am thinking if these numbers are so low, even though 
they are very well-trained agents and in demand, that maybe 
there needs to be some more coordination with the specialized 
training institutes, maybe a wider availability of training 
opportunities on skills such as forensic interviewing.
    Ms. Hanes. While there may be four child forensic 
interviewers at the FBI, there are 12,500 police departments 
across this country. We can just hardly do enough to provide 
training to all of those officers.
    There are 2,300 state prosecutors' offices that handled 
over 2.9 million felonies since 2007. It is hard to overstate 
the necessity to be able to provide the important specialized 
training for the investigation and prosecution of child abuse.
    I know from experience in the courtroom in Iowa that the 
absence of those skills, the inability to know what to do and 
how to investigate a case--I can tell a dozen stories.
    Senator Klobuchar. Do you want to tell one?
    Ms. Hanes. Yes, I do. When I was a brand new lawyer in 1987 
in Polk County, Iowa, there was a five-month-old baby, 
Jonathan, who suffered burns over 50 percent of his body and it 
was clear that the mother's live-in boyfriend had inflicted the 
injuries. And Jonathan was taken to the hospital, where he 
fought for his life.
    And over the next three days, the law enforcement 
authorities fought with the juvenile justice--or the juvenile 
court investigators over who needed to go out and do this 
investigation.
    In the meantime, mom reconciled with the boyfriend. The 
evidence was destroyed. And a couple of months later, Jonathan 
was returned to this home. Six months after that, another 
physical abuse allegation was received, again, the same 
perpetrator and the same child subjected to that.
    At that point, in Polk County, we decided we are never 
going to let that happen again, and so we began to seek out 
best practices, like multi-disciplinary investigations and 
working together, some of the practices that we at OJJDP 
provide training for, and it made a vast difference in reducing 
the number of Jonathans in Polk County.
    Senator Klobuchar. Thank you, and thank you for doing that.
    One last thing. Despite that story and the stories of 
improvement that I know we saw in the State of Minnesota, as 
well, with the training--and we are so lucky to have the Winona 
Center right in our state. But according to the Fourth National 
Incidence Study of Child Abuse and Neglect, only 50 percent of 
the Nation's identified abused children in 2010 actually had 
their cases investigated.
    What kind of training do you think that we need to provide 
to improve these numbers?
    Ms. Hanes. The training needs to be broad-based and 
multifaceted. Child abuse is complex and investigating these 
cases and prosecuting them requires a sophisticated level of 
expertise. Often it involves complex medical evidence and 
difficult evidence to acquire.
    And so the training is really necessary across the spectrum 
from the first investigator that receives the report, of 
understanding the dynamics of child abuse through the police 
officers, the CPI workers, the courts, the prosecutors, the 
defense attorneys, and then, on the back end, anybody who is 
working with the family in recovery and trauma-informed care.
    It is by far not simple and it is ultimately one of the 
most important things we can do for our children.
    Senator Klobuchar. Thank you very much. Thank you for your 
good work.
    Senator Franken.
    Senator Franken. Madam Chairwoman, I would like to thank 
you for your leadership on this issue. From your days as a 
prosecutor in Minnesota to your days as a Senator, you have 
been a champion for the children of our State.
    I am proud to cosponsor your Child Protection Training Act, 
and I would like to recognize all the hard work you have put 
into that bill.
    Your last remark about how hard this is, so important to 
this hearing. The Federal Government estimates that there are 
more than 750,000 instances of child abuse each year. Of 
course, one instance of abuse is one too many, but 750,000 
instances is just hard to wrap your head around.
    The Chairwoman's bill will address this problem by creating 
a national plan and a national commitment to train people how 
to recognize and report abuse, and that, I think, speaks to the 
complexity that you are talking about.
    This is a complex issue and people need that training to 
come in at the beginning and address it and to prevent--
hopefully, to prevent more Jonathans.
    Thank you for your testimony, Acting Administrator Hanes. I 
am interested in the Defending Childhood initiative that you 
described. As I understand it, that initiative is intended to 
address children's exposure to violence.
    I sit on the Indian Affairs Committee and I have heard 
testimony about the cycle of violence in many communities. 
Children who are exposed to violence are more likely to commit 
acts of violence when they become adults. And you talk about 
the complexity of this.
    We are talking about, on reservations, the pathologies that 
come from cultural trauma. We are talking about drug abuse, 
alcohol abuse, talking about mental illness.
    Can you talk a bit about the Defending Childhood initiative 
and how it would go about breaking the cycle of violence?
    Ms. Hanes. I would be delighted to, Senator Franken. Thank 
you.
    The Defending Childhood initiative began in 2009 as a 
result of the study that I referenced earlier that OJJDP did in 
conjunction with the Center for Disease Control, indicating 
that 60 percent of children in this country are exposed to 
violence in the home, school or community.
    And it is not just a bad result in terms of criminal 
justice, as you referred to it, but it is a bad outcome for 
these kids. Research indicates that they suffer psychological 
damage, emotional damage, but, also, and importantly, physical 
consequences.
    These children seem to have much significantly increased 
physical problems, as well. So it becomes not just a criminal 
justice issue, but a health issue for our children.
    In response to the study, the Attorney General, carrying on 
really what he began as Deputy Attorney General in 1999 with 
Safe Start, began the Defending Childhood initiative. And it is 
a demonstration project, a collaboration, as I explained to 
Ranking Member Grassley, between several divisions, where we 
fund eight sites to encourage the community to develop a 
strategic plan to work together, in a multi-disciplinary way, 
it takes a village, to reduce the incidence and impact of 
children's exposure to violence.
    We have proceeded beyond the strategic planning and now 
eight sites are implementing those plans and we are providing 
assistance to them. Two of those sites are, in fact, in Indian 
country in South Dakota and in Montana.
    At the same time, we are providing assistance to each of 
those sites with the best practices that we can give them 
across the spectrum of the children's exposure to violence, 
whether it is domestic violence, whether it is in the schools, 
whether it is gangs in the community.
    We are arming these sites with the best practices that we 
have from our research to implement them in their communities 
to reduce the exposure to violence. And we are also evaluating 
the sites at the same time to assure the best value for our 
investment.
    Additionally, the Defending Childhood initiative has 
another component that I would like to share with you, and that 
is the Task Force on Children Exposed to Task Force on Children 
Exposed to Violence. It is a task force appointed by this 
Attorney General of 13 of the best and brightest experts across 
the Nation to look at the issue of children's exposure to 
violence in this country, including in Indian country.
    They have conducted four hearings across the United States, 
and we expect them to make findings and recommendations to the 
Attorney General, hopefully by the end of the year, with 
concrete next steps of what we call can do to reduce children's 
exposure to violence.
    Senator Franken. Thank you. My time is out. I would just 
like to make two comments.
    This is why, in VAWA, I think the element of Indian country 
is so important and I also think why it is so important, again, 
in VAWA, that we have transitional housing and enough 
transitional housing when there is domestic violence so that a 
mother can take her children out of a setting where there is 
violence.
    And I think that we have to remember how much we do pay 
down the line for this, and it is penny wise and pound foolish 
not to be funding these programs.
    So I thank you very much for your work.
    And I thank you, Madam Chair, for your work in this and 
leadership.
    Senator Klobuchar. Thank you very much.
    I think Senator Grassley had one more question. Oh, you are 
okay. Thank you.
    All right. Well, thank you very much, Ms. Hanes. It is very 
informative, and thank you for your work you have done with 
kids for so many years.
    Now, we are going to bring up our second panel. Thank you.
    Alright, well thank you all for being here. I am going to 
introduce each of you and then we will have you get started.
    First, we have Victor Vieth, a friend. He serves as the 
Executive Director of the National Child Protection Training 
Center at Winona State University in Winona, Minnesota.
    Before his work with the center, he prosecuted child abuse 
cases in rural Minnesota and the American Bar Association, the 
National Bar Association named him one of the 21 young lawyers 
leading us into the 21st century.
    Mr. Vieth has trained thousands of child protection 
professionals and written extensively on the issue of child 
abuse. I remember, as Hennepin County attorney, being able to 
be there when they inaugurated the center. He has done great 
work and we have worked very hard to keep that center strong.
    So thank you for what you are doing on behalf of thousands 
of kids who are never even going to know that you helped them.
    Michael Johnson joined the Boy Scouts of America in July 
2010 as its youth protection director. From 1982 until 2010, he 
served in the Plano, Texas, Police Department in a number of 
different capacities. In 1988, he began focusing exclusively on 
the investigation of crimes against children.
    Mr. Johnson serves on the board of the American 
Professional Society on the Abuse of Children and has worked to 
change state laws with respect to child abuse.
    You should know, Mr. Johnson, that my in-laws were scout 
leaders and that, in fact, my husband and his five brothers 
were very involved.
    Five of the six boys, Senator Grassley, became Eagle 
Scouts, and I never like to say which one did not make it, 
because I do not like to embarrass my husband.
    [Laughter.]
    Senator Klobuchar. So in any case, we welcome you here 
today. He rebelled and disobeyed.
    Next, we have with us Chris Newlin. Chris has been the 
Executive Director of the National Children's Advocacy Center 
since July 2005. He was formerly the Executive and Clinical 
Director of Harbor House, which is the Northwest Georgia Child 
Advocacy Center in Rome, Georgia.
    He is a former board member of the Georgia Association for 
the Treatment of Sexual Abusers, and the former president of 
the Children's Advocacy Centers for Georgia. He also served as 
a counselor and forensic interviewer at the Children's Advocacy 
Center's Services of Greater St. Louis.
    Thank you for being here, Mr. Newlin.
    And then, finally, we have Stephanie Smith. Stephanie Smith 
is the Southern Regional Director for the National Child 
Protection Training Center at Northwest Arkansas Community 
College in Bentonville, Arkansas.
    From 1998 until 2009, she served in the Hamilton County, 
Indiana prosecutor's office, specializing in crimes against 
children, including physical and sexual abuse, neglected, and 
Internet-related offenses.
    Ms. Smith was also a member of the advisory board for 
Project Safe Childhood, which was a Department of Justice 
effort, which we just heard about from Melodee Hanes, to 
promote education about the dangers for children on the 
Internet.
    Thank you all for being here. And we will start with Mr. 
Vieth.

 STATEMENT OF VICTOR VIETH, EXECUTIVE DIRECTOR, NATIONAL CHILD 
 PROTECTION TRAINING CENTER, WINONA STATE UNIVERSITY, WINONA, 
                           MINNESOTA

    Mr. Vieth. Thank you, Senator Klobuchar.
    Two weeks into my career as a prosecutor, I was asked to 
litigate a termination of parental rights case. The most 
dramatic moment of that trial came when a young social worker 
was grilled by the defense attorney about all the things he did 
wrong during the investigation.
    When cross-examined about removing the baby from the home, 
something he lacked the legal authority to do, the social 
worker began to cry and said, ``The baby was covered with 
maggots. I didn't know what I was supposed to do.''
    None of us in that case knew what we were supposed to do. 
And absence of training on child abuse at the undergraduate and 
graduate level, a shortage of quality training for 
professionals in the field left us to figure it out as we went 
along.
    Twenty-five years later, many communities face the same 
struggle. To address this, I would like to focus on two 
reforms.
    First and foremost, we must end on-the-job training for 
future child protection processionals. Both research and the 
near universal experience of frontline child protection 
professionals confirm that very little, if any, instruction on 
handling these cases is provided at the undergraduate or 
graduate level.
    As a result, many professionals in the field go years 
without being fully trained on even the most basic aspects of 
handling a case of child abuse. When this happens, cases are 
not properly investigated or are not investigated at all.
    According to the most recent National Incidence Study, 70 
percent of the most serious cases of child abuse identified by 
NIS researchers were not investigated.
    To address this, Winona State University examined many of 
the best training programs for professionals in the field and 
partnered with the National Child Protection Training Center 
and the National District Attorneys Association in developing 
an intensive interdisciplinary minor called child advocacy 
studies, or CAST. We have also developed CAST graduate programs 
for medical schools, law schools, even seminaries.
    These courses have dramatically improved the knowledge and 
skills of these professionals. We have replicated CAST in 27 
institutions of higher education from 17 different states, with 
the realistic goal of 500 CAST universities by 2018.
    Second, we must realize that although there is a role for 
national child abuse conferences and providing ongoing training 
for professionals in the field, the most effective training 
will always be at the state and local level.
    Ten years ago, there were a number of high-quality forensic 
interview training programs offered by CornerHouse, APSAC, the 
National Children's Advocacy Center, and other stellar 
organizations.
    Unfortunately, the intense nature of these courses limited 
the class size to no more than 40 professionals and, thus, 
impacted only hundreds a year. But beginning in 2000 and 
continuing until today, the National District Attorneys 
Association and now the National Child Protection Training 
Center worked with CornerHouse to establish five-day forensic 
interview training programs that met national standards, but 
that were taught at a State level.
    Twenty States implemented the reform and very quickly we 
went from training hundreds a year at the national level to 
training thousands a year at the State level.
    A forensic interviewer who graduated last year from our 
Pennsylvania course wrote us, ``What an amazing week. Wednesday 
night at dinner, I told my team members that the most 
incredible transformation had happened. I've gone from feeling 
like I was pretending to know what I was doing to a feeling of 
competence. You have no idea how much that means.''
    When discussing these and other reforms, we must keep in 
mind that high-quality training is the determining factor of 
whether or not many children will be spared from abuse.
    As one example, a child protection worker who went through 
one of our State trainings, she wrote us, ``Right after your 
training, I had a new sexual abuse case at the homeless shelter 
where a five-year-old was the victim. The police officer was 
floored at what I was able to now get out of the child without 
asking one leading question. When we were done, I told him we 
needed the clothing, we needed the photos of the room. This is 
the first case in our county where this type of evidence will 
be available to the prosecution. Thank you so much for giving 
me the knowledge I needed to do it right.''
    Senators, in empowering frontline child protection 
professionals like that to do it right, we will speed toward 
the day our country can say to hurting children, in the words 
of Aeschylus, ``Suffering, when it climbs the highest, lasts 
but a little time.''
    Thank you.
    [The prepared statement of Mr. Vieth appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much.
    Mr. Johnson.

STATEMENT OF MICHAEL JOHNSON, DIRECTOR OF YOUTH PROTECTION, BOY 
                SCOUTS OF AMERICA, IRVING, TEXAS

    Mr. Johnson. Thank you, Senators and Ranking Member, 
Senators Grassley and Franken. It is a pleasure to see you and 
meet you.
    I realize that I am the guy who responds at two in the 
morning when there is a shaken baby case. I am the guy that, 
when that child is sexually assaulted, I am the police 
detective, along with my child protective services colleagues, 
that responds.
    Frankly, our country needs solutions to abuse and 
exploitation of youth--professionals that are highly trained to 
prevent, respond and protect our youth.
    I am a 28-year law enforcement veteran. I investigated, as 
a detective, 24 years, primarily the area of child abuse and 
neglect and exploitation.
    I am a founder of our local children's advocacy center, its 
multi-disciplinary team, and I helped create a family violence 
unit protocol for ours. So we were not just looking at child 
abuse. We were looking at all issues that occur within the 
home.
    I have interviewed, responded, investigated, interrogated 
all aspects of victims, witnesses, and perpetrators of all 
types of abuse and exploitation of our youth. I have trained 
thousands of law enforcement investigators and child protective 
service workers, prosecutors, advocates, therapists, both 
nationally and at my colleague--a national conference in 
Huntsville, Alabama, the APSAC, San Diego Children's 
Conference, all the national conferences.
    I have trained at both State and regional levels, some of 
the most effective trainings I have been involved in, over 300 
in my 12-year training career, at local levels in communities.
    Senators, why am I here? The safety of our children 
mandates that every jurisdiction in America be able to respond 
effectively to child abuse, maltreatment and exploitation with 
highly trained, fully functional investigative multi-
disciplinary team members.
    When I began investigating abuse, little or no training was 
available and there was no support system, somebody that you 
could call. So at two in the morning, when I needed somebody to 
call, I was dependent on the other detectives or maybe a 
prosecutor who was nice enough to give me their cell phone 
number, and we would muddle our way through it.
    I came to realize that abuse investigation needed training 
in numerous areas prior to being assigned their first case, and 
I think that is important for all of us to remember. They need 
to be trained prior to their first case.
    I had to have knowledge in the areas of evidence, evidence 
collection, forensic interview of children, adolescent victims, 
youth and adult witnesses, non-offending caregivers, the 
dynamics involved in neglect, abuse, perpetrator dynamics, 
typology, deception, abusive head trauma, you name it, all 
prior to my first assignment.
    Thus, when I first became a child abuse detective, I, quite 
frankly, had no idea what I was doing. The answer for what we 
need was clearly summed up in the testimony that I submitted, 
an article by Robert Giles, in which he makes a compelling 
argument for the importance of multi-disciplinary 
investigations.
    Unfortunately, it is not enough to form an MDT. Those team 
members must be properly trained.
    If you were to then follow up with these same 
professionals--when I present at national conferences, I 
usually will ask the question of my law enforcement colleagues, 
``How many of you are adequately, properly trained before first 
assignment?''
    Of 100 law enforcement officers, all of them typically will 
raise their hand and say that they were not adequately, 
properly trained before their first investigative assignment.
    If you were to follow up with those same investigators 
three years later, that number would be the same. This is 
fundamentally unacceptable.
    There are three things that we need to do to address this 
issue. First, we need to increase and create, actually, 
undergraduate and graduate programs to provide proper education 
and training.
    Number two, we need large regional conferences and not rely 
solely on national conferences for these trainings. The best 
trainings occur at the local level where we can address the 
specific issues of that community, address the specific laws 
and procedures, and give that intensive training.
    And, third, that training needs to be hands-on and 
specific. One of the proudest moments I had in my professional 
career was actually helping to design the child abuse house, 
the mock house on Winona State University, where we can take 
police detectives, social workers, forensic interviewers, 
whoever is a part of that multi-disciplinary team training and 
have them go through real life, situationally specific 
incidences.
    We would rather them make those mistakes there instead of 
making those mistakes in the field where a child's life may 
hang in the balance.
    Thank you.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Senator Klobuchar. Very good. Thank you very much, Mr. 
Johnson.
    Mr. Newlin.

    STATEMENT OF CHRIS NEWLIN, EXECUTIVE DIRECTOR, NATIONAL 
        CHILDREN'S ADVOCACY CENTER, HUNTSVILLE, ALABAMA

    Mr. Newlin. Thank you very much, Chairwoman Klobuchar, 
Ranking Member Grassley, Senator Franken, my distinguished 
panelists. It is an honor to be here and to speak about this 
issue that all of us at this table have dedicated our lives to.
    I remember when I--my first job out of school, I was 
working in a residential treatment program for kids who had 
emotional or behavioral problems. And during the five years 
that I worked there, while I was going to graduate school, I 
began to hear the stories of these kids, that all of them, 
every single kid that I saw for five years that was in this 
program had experienced multiple forms of violence, sexual 
abuse, physical abuse, domestic violence in the home, substance 
abuse in the home, much like Melodee Hanes was talking about 
earlier.
    And it just challenged my view of the world. It said, ``How 
can this be? Is this what's really happening to our children 
out there? '' And this was further reinforced when I began to 
work at a children's hospital providing treatment and a girl 
named Cary said to me one day, after she had been--she had been 
sexually abused by her dad on two occasions, and I was seeing 
her in treatment.
    And she looked at me 1 day and she said, ``If I had it to 
do all over again, I wish I hadn't told.'' And all I could 
think about--I remember that day like it was yesterday, where 
we were sitting, the time of day, what the weather--everything, 
because this was a transformative moment.
    She indicated that the way the system had responded to her 
was absolutely more traumatic to her than being sexually abused 
twice by her father. Now, that is a sad commentary and I think 
that is a mutual commentary that we all have our own stories.
    We have all gone different directions, but my efforts said 
we need to have a better process in place to bring together the 
people so that we are not re-traumatizing children, that we are 
doing a good job.
    And that led me to the Children's Advocacy Center movement, 
which, in my opinion, has revolutionized our Nation's response 
to child abuse.
    Throughout the United States, there are more than 850 
children's advocacy centers that last year served over 270,000 
children. These are children where there were allegations of 
sexual abuse, physical abuse, exposure to other forms of 
violence or witness to murder.
    These programs are clearly demonstrated to be highly 
effective, better access to medical care, better access, higher 
caregiver satisfaction ratings.
    All the research that Senator Grassley had asked about 
before is solidly supporting the intervention of these CACs, 
and they are making a big difference in our country.
    The NCAC has a two-part mission. When we were founded by 
former Congressman Bud Cramer, the idea was we need to provide 
quality services at home, but we also need to be training 
professionals, because his experience was the same as everyone 
at this table, which is there is not good quality training out 
there.
    Since the late 1980s, we have trained more than 70,000 
child abuse professionals in the United States. And part of 
that is at our national conference, but even more of that is 
through our online trainings or trainings that we are 
increasingly doing out in the field at the state level on all 
types of topics, most commonly, forensic interviewing, how to 
elicit information from children, and how to coordinate the 
multi-disciplinary response to child abuse.
    Why is this important? Senator Franken mentioned earlier it 
has an impact on our country, and it does. The research clearly 
says that women who have been sexually abused have 16 percent 
higher health care costs across their life span. And if a woman 
was both sexually and physically abused, those health care 
costs are 36 percent higher.
    When we talk about the rising cost of health care and the 
health of our Nation, this is an issue that ties all the way 
back to exposure to violence, and especially child abuse. And 
it affects our Nation's economy, too, that individuals--we know 
from the research that individuals that have been sexually or 
physically abused earn $8,000 less per year on average than 
their non-abused peers.
    So this is an issue of child abuse. All of us have looked 
into the eyes of children on a daily basis when we were on the 
front lines. But it is also an issue that affects our Nation's 
future, our Nation's health and economy. And so I think it is 
incredibly important that we support these efforts.
    We have done a training survey recently and we found that 
over 94 percent of the professionals that responded to this 
survey, over 2,100 professionals, 94 percent did not have all 
the training that they needed and over 65 percent of the 
organizations where they worked have less than $5,000 a year 
for an annual training budget. That is not per employee, that 
is for everybody.
    How can you possibly learn to take on these difficult tasks 
when you are challenged with having such little resources?
    So a few recommendations. Number one, I think we must 
increase Federal funding to help support the response to child 
abuse. I fully support that we also need to address this issue 
in college and in graduate and undergraduate programs. That is 
part of it, but there is emerging research all the time that 
will require us to have continuing professional education over 
the life span.
    We know so much more now than we did 20 years ago, and in 
20 years we will be even better off.
    So thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Newlin appears as a 
submission for the record.]
    Senator Klobuchar. Very good. Thank you very much.
    Ms. Smith.

   STATEMENT OF STEPHANIE SMITH, SOUTHERN REGIONAL DIRECTOR, 
 NATIONAL CHILD PROTECTION TRAINING CENTER, NORTHWEST ARKANSAS 
           COMMMUNITY COLLEGE, BENTONVILLE, ARKANSAS

    Ms. Smith. Thank you, Chairwoman Klobuchar, Ranking Member 
Grassley, Senator Franken, my friends on the panel.
    In 1998, I finished law school and left a lucrative career 
to work in a prosecutor's office for one-third of my previous 
annual salary. The only explanation I can give for that 
seemingly strange decision was that I really, really wanted to 
work for fair and just treatment of children in this country, 
and somehow I knew this job would take me there.
    Two years ago, my last week on the job as a deputy 
prosecutor, was spent trying a case of child sexual abuse. It 
was a very difficult case, and, at the conclusion, the victim 
hugged me and she said, ``Thank you. No one has ever fought for 
me before.'' And we did not even win that case.
    It was the perfect way for me to leave my frontline career 
as I moved into training others using what I had learned from 
my experiences. And as much as I would like to take credit for 
that thank you, I cannot, because I am no one special.
    In the world of child protection professionals, I am just 
one more person who wants that fair and just treatment for 
children, who wants a better life and opportunity for children 
to achieve their potential, all children.
    What did make me different from the previous prosecutors 
who had ignored that victim's cry for help was that I had been 
given the tools I needed to fight. When I was first put in the 
position of handling child abuse cases, my boss knew that I did 
not have the necessary background. She knew that law school had 
not prepared me to present the testimony of a child witness in 
court or how to protect that child from aggressive defense 
attorneys.
    She knew that neither law school nor my previous caseload 
had equipped me to help investigators understand how important 
even the most minute detail was in presenting a case of child 
abuse. She knew that no one had ever helped me understand the 
dynamics of a family in crisis or a community that would 
support an abuser over the child.
    She knew all of that because she had been in my shoes. So 
she mentored me. She did everything she could to find training 
opportunities and the funds to send me for those trainings. She 
covered my caseload herself so I could fly 1,000 miles, 
sometimes more, to get the training.
    I am no one special, but my circumstances were, because it 
is, unfortunately, all too common that many of those who 
currently supervise child protection professionals do not 
understand the importance of that specialized training or they 
do not have the funds to send their people.
    So thousands of prosecutors, detectives, social workers, 
forensic interviewers, victim advocates, and even judicial 
officers work each day with one hand tied behind their back for 
lack of knowledge or lack of a place to get information.
    They need encouragement and support to become better 
fighters, and one of the best means of doing that is giving 
them accessible training that is affordable even for small 
jurisdictions.
    Regionally based trainings can be held more often. They can 
be designed for smaller groups, and smaller groups will 
encourage our multi-disciplinary teams to attend together, 
because we can make those trainings focused.
    Smaller groups allow for greater participation and more 
interaction between our professionals and the trainers. When we 
conduct trainings at our regional center, the participants not 
only talk with the trainers one-on-one, they often bring case 
files with them and ask us to review.
    These smaller settings benefit the trainers, as well. It is 
very easy for us to help assess what the needs are out in the 
field so that we can adapt and quickly tailor more trainings to 
help those who are working these cases.
    Greater frequency of these trainings means that a 
professional is never precluded from a useful training because 
they had a court case scheduled the one time a year that 
important training was being held. Instead, they will have two 
or three opportunities over a 12- or 18-month period to access 
the training they need.
    And these trainings can be more hands on. They do not have 
to be restricted to lecture-based settings to accommodate 
hundreds of participants. And this is why many of our 
evaluations say ``It is one of the best trainings I have ever 
been to.''
    Those hands-on courses can be designed to encourage our 
multi-disciplinary teams to attend together, and, thus, 
reinforce the concept of interdisciplinary unity in these 
cases.
    This approach provides frequent, relevant, cost-effective 
training for more of our front line, ensuring that they are 
equipped to fight for every child every day. Those who work so 
tirelessly for children deserve often to hear the phrase, 
``Thank you for fighting for me,'' at least until the day they 
no longer need to fight.
    Thank you.
    [The prepared statement of Ms. Smith appears as a 
submission for the record.]
    Senator Klobuchar. Well, thank you very much, to all of 
you. That was very straightforward, but, also, passionate 
testimony, which we do not always get all the time, and I 
really appreciate the work that you are doing, all four of you.
    Do you want to start, Senator Grassley?
    Senator Grassley. I appreciate that opportunity. And when I 
am done questioning, if I can have your leave, I would like to 
go.
    Administrator Hanes mentioned--and by the way, this can be 
for any or all of you, whoever wants to respond, but I hope a 
couple of you will respond.
    Ms. Hanes mentioned that 60 percent of the children were 
exposed to some form of violence, crime and abuse. Now, 
whatever statistics each of you might use, given your expertise 
and work in the field, what do you make of this statistic? And 
what do you see as trends in child abuse, getting worse or 
staying about the same, or maybe some of our work is beneficial 
and it is getting less.
    Any of you.
    Mr. Johnson. Senator Grassley, I am also on the board of 
directors of the National Alliance of Child--what is it, NACA? 
Native American Children's Alliance. I am sorry. I get all my 
acronyms mixed up. And it always bothers me anytime I hear 
these statistics about abuse and neglect because they do not 
take into consideration Indian country, typically.
    I know for a fact that there are some--my Native American 
colleagues are on reservations where every single female child 
has been sexually abused at least once. So I take that into 
consideration.
    The other thing my colleagues, Mr. Newlin and Victor, they 
can talk statistics and research, but when you are in the 
field, it is that one child at a time, sir. That is what is in 
front of you. That is what you have got to address, regardless 
of whether the stats are going up and down.
    My colleague, Dr. Finkelhor, refers to the fact that the 
incidence of reported abuse appears to be going down. Well, you 
might want to talk to the people over at the ICAC task force to 
see what is happening online.
    So I feel like with the affirmation effect that the 
Internet has on child sex offenders, we see not only in law 
enforcement--we see that it is not only getting worse, sir, but 
the incidences are higher and it is more threatening.
    And I think that it really pushes the point that we need 
professionally, highly trained investigators to address this 
issue in our communities.
    Senator Grassley. Go ahead, sir.
    Mr. Vieth. I think I could comment on that. I think child 
abuse is declining. The NIS studies that were referenced before 
would bear that out. And there are different thoughts in the 
field as to why that may be.
    But I tend to agree with those researchers who say child 
abuse is declining because are so much better off than we were 
25 years ago. We have made significant strides. Chris mentioned 
one of those with the CAC movement.
    But as Senator Franken pointed out, 750,000 incidence is 
still way too many. And so I would urge Congress to continue 
the momentum. The things that we have talked about today are 
not stopping what has gone before, but to take it to a higher 
level.
    I would also urge you and others, if you are not familiar 
with, to take some time and to acquaint yourself with the 
adverse childhood experience studies. I reference them in my 
written testimony. They are done by the Centers for Disease 
Control, they began in 1998, where researchers noticed a 
correlation between obesity and child abuse, and then they 
wondered what else is there a correlation of.
    And so they queried 17,000 men and women who had gone 
through an HMO and they discovered there was a statistical 
correlation between child abuse and virtually every medical and 
mental health condition that you could envision, even things 
like liver disease, heart disease, cancer.
    And essentially, what those pioneering studies have 
concluded, if we could significantly reduce child abuse, we 
would significantly reduce virtually every medical and mental 
health condition that we are facing today.
    Senator Grassley. Go ahead, sir.
    Mr. Newlin. Thank you very much, Senator Grassley. 
Actually, the statistic is maybe even a little bit more 
alarming. The 60 percent--it is actually about 58 percent of 
kids are exposed to at least one form of violence per year. So 
in the past year, 58 percent of kids have experienced some form 
of violence.
    Now, those numbers are a little bit inflated because that 
also includes peer-to-peer violence, so kids at school and 
stuff, and I am not sure we necessarily equate that to sexual 
abuse or physical abuse.
    But the problem is that violence is a pervasive theme in 
our country and the trend is--one of the trends is recognizing 
that it is not just physical abuse or sexual abuse or this. It 
is this concept of polyvictimization, that the cumulative 
effects of different forms of exposure to violence really can 
be harmful to a child.
    And Victor was mentioning the ACE (Adverse Childhood 
Experiences) study and everything lines up. The A study says we 
have all these health impacts. That is why our cost of health 
care is higher for these individuals. Those issues go hand in 
hand.
    I clearly believe there is a reduction in child sexual 
abuse. We are making progress. We are improving. What we are 
actually improving is our detection rate. Our ability to detect 
abuse that actually is going on has doubled over the last 20 
years.
    We are now able to detect much more commonly when abuse is 
occurring and able to intervene. The sad thing is that we are 
still woefully understaffed at the local level to be able to 
respond to those needs.
    Senator Grassley. Could I ask one more question?
    Senator Klobuchar. Of course.
    Senator Grassley. And this is a question that I ask for any 
program that is up for reauthorization in this Committee or a 
lot of other committees. And since you folks are out there 
seeing how these programs work, I always ask if you have any 
suggestions for improving existing grant programs, and, 
particularly, if you see overlap or anything, opportunities for 
consolidation. And maybe you do not have any suggestions, but 
if you do, I would like to have that information, because you 
see the programs where the rubber meets the road.
    Mr. Vieth. I have a suggestion. Do you?
    Mr. Newlin. Yes, I do. It will be interesting. We will see 
if our suggestions align.
    Part of the entire CAC movement is all about eliminating 
duplication of service, and what we have been able to find just 
by the CAC model is that we actually save money compared to the 
traditional method of investigating child abuse.
    So we are all about trying to maximize what we are able to 
do. At this time, and I know this may be a monumental 
challenge, there is support through the Health and Human 
Services and the judiciary focusing on the issue of child abuse 
and training.
    I believe if there was some way to really more cohesively 
integrate those efforts, and that is one of the recommendations 
I made in my written testimony, to coordinate some of those 
efforts at the government level, that would be advantageous.
    At the front lines, back in our community, that is what we 
are doing. We have Health and Human Services working with law 
enforcement and prosecutors and mental health professionals. So 
if there was a way to strategically allocate the funding so 
that it is working in concert with each other, I think that 
would be advantageous.
    Mr. Vieth. I have two quick comments. First, what I see at 
the national and state level is that all of the national 
organizations really do make a concerted effort to coordinate.
    For example, Chris and his team take a leadership role in 
spreading the children's advocacy centers, and we support that 
in every way we can.
    We have taken a leadership role in reforming undergraduate 
and graduate training. Chris has supported that every way that 
he can. The reason we have a CAST program in Alabama is because 
Chris brought that initiative to his community.
    And I have seen OJJDP make a concerted effort to have all 
of us work together, as well. So that is a positive and goes to 
your issue of your concern of duplication or overlap.
    My one suggestion for Congress is when you are disbursing 
research dollars under a grant program, it is very important to 
have a team of researchers and frontline professionals be 
working together to review those proposals. Mike talked about 
it in his written testimony, as did I.
    But what we have seen is Federal dollars will go to support 
a research project that has nothing to do with what frontline 
professionals are actually doing on the front lines.
    I have seen projects funded by Congress where we are 
researching a certain aspect of investigation which is based on 
a research team's review of one or two cases. But those of us 
who are on the front lines are looking at that study, saying, 
``Well, that happen so rarely that maybe there are better 
research projects that would better help us on the front 
lines.''
    So that is my one suggestion. We have to make a concerted 
effort to have frontline professionals working with researchers 
in determining research projects funded by the government.
    Senator Grassley. Thank you all. Did you want to respond, 
too?
    Mr. Johnson. Yes, sir. One quick addition. Not all 
communities can support a children's advocacy center, but every 
community can have a multi-disciplinary team. And there are 
still a lot of--there should be joint investigations, law 
enforcement, child protective services, prosecution, all the 
things that we know are the best practices for those multi-
disciplinary teams. But there are a lot of very rural, Native 
reservation communities that do not have that ability and they 
should have the access to the exact same high quality research-
based, practical training as everybody else.
    Senator Grassley. Thank you. Thank you very much.
    Ms. Smith. Sir, if I could just add one thing, because Mike 
has kind of brought this to my head.
    One of the most important things about this coordination, 
whether it is a CAC or a multi-disciplinary team on a 
reservation, training these people to work together, training 
them in best practices ultimately saves us money, because when 
folks know how to do the cases and they know how to work 
together, they, first of all, get to the root of the problem 
more quickly.
    If they do a thorough investigation, we are much more 
likely to resolve the case without having to drag it through 
the judicial process for a couple of years.
    I started keeping statistics in my county when I first took 
over on my job and because we had a great team going, we were 
getting confessions and guilty pleas in 85 percent of the cases 
where we had a substantiated disclosure.
    And so we know that we saved resources on the back end, but 
we also got those children the services they needed more 
quickly.
    Thank you.
    Senator Klobuchar. Thank you very much.
    Senator Franken.
    Senator Franken. Thank you again, Madam Chair, for this 
hearing.
    Mr. Newlin, I want to ask this question about the young 
lady who said she wished she had not told about being sexually 
abused by her father, because I am interested in learning about 
what is done wrong and how that is corrected.
    And so what was her experience that made her come to that 
conclusion? I do not think that in all this testimony we 
necessarily hear--we get snippets of it, but what the wrong way 
to do this is and how that can be--how that is reformed by CAST 
and the other programs that we are talking about here.
    Mr. Newlin. Thank you very much. Cary changed my life and, 
hopefully, I have allowed her to help change the lives of 
others.
    Her experience was of the old school and, unfortunately, is 
still the current school for some children who experience abuse 
and neglect. She was interviewed in intimidating environments 
multiple times, having to go to a child protective services 
office, having to go to a police department, having to go to 
the hospital. The hospital was not the problem, but for her, 
she was interviewed in a way that was accusatory, was not 
supportive, was not developmentally appropriate, was not 
trauma-informed.
    So her experience from that initial contact is ``I am 
finally having the courage to talk about what my dad has done 
to me on two occasions, and I am being treated like a 
criminal.''
    And that is criminal, and that was her initial experience. 
And then for her to face the challenges that many children face 
when it is intra-familial abuse, where she was--there was all 
kinds of talk and rumor and innuendo in her community and her 
neighborhood. All of those issues were really harmful to her. 
And feeling--all she wanted, she wanted her dad to get some 
help and she did not want him to do it anymore.
    And her being able to have a voice in that process was--she 
just was not being heard. And because of all of that, that is 
why she said ``I just don't want to do it? '' And that is 
exactly the same experience that Bud Cramer had when he started 
the entire CAC movement. He had a grandmother that came into 
his office and said, ``This is crazy. My granddaughter has been 
interviewed over and over and over. Don't you people talk to 
each other? '' And he said, ``We better.'' And that is what led 
to the movement.
    Thank you for the opportunity to respond.
    Senator Franken. So what is the training like to address 
that exactly? In other words, what do people learn, Mr. Vieth, 
when they go through the training? What is the corrective to 
that? What is the reform?
    Mr. Vieth. First of all, we are trained how to talk to 
children in developmentally linguistically appropriate ways so 
that we get accurate information.
    Senator Franken. How old was this young lady?
    Mr. Newlin. She was 13 at the time, really smart, bright, 
articulate, everything going for her.
    Mr. Vieth. And when I say developmentally linguistically 
appropriate ways, that also includes teenagers. They have their 
own language. They have their own issues. We have a separate 
training program just for interviewing adolescents or 
teenagers.
    We have to understand the very dynamics that Chris is 
talking about as a team and figure out how to address that. 
Oftentimes, children have a non-offending caretaker that is not 
supportive. That is the number one risk of recantation, and a 
lot of times that non-offending caretaker is mom. And somebody 
on the mental health team needs to sit down with her and help 
her process her issues.
    Senator Franken. Recantation.
    Mr. Vieth. Yes. You take it back. You make an allegation of 
sexual abuse, you realize all these pressures are there, and 
you take it back.
    The number one risk of recantation is when the mother is 
not supportive of a child. So somebody needs to be working with 
her, processing her issues, her fears, such as, ``Gosh, why 
wouldn't my child come and make this disclosure to me as 
opposed to keeping it silent so long? What does it say about me 
as a mother that I wasn't picking up on what was going on in my 
home? ''
    Helping the child immediately access mental health 
services; figuring out what fears, trepidations the child has 
about court or other processes and trying to alleviate those as 
quickly as possible; making sure the child doesn't stand alone.
    One of the most stressful things for kids is to think the 
entire case is resting on their shoulders. That should never be 
the case.
    In the written testimony, there is an article we have on 
corroborating evidence. We teach that there is always 
corroborating evidence in sexual abuse cases. You should always 
have 10 to 15 pieces of corroborating evidence if you know how 
to look for it.
    How to properly talk to the suspect so that you can get 
incriminating statements, if not a confession. All of those 
sort of things tend to reduce the stressors in the family and 
the more quickly we can work to address whatever the underlying 
issues are.
    Senator Franken. Thank you. I know I am over my time. I 
have one little, short question.
    Mr. Johnson, Senator Schumer has introduced the Child 
Protection Improvement Act, a bill that would give youth-
serving organizations access to FBI background checks, and I 
support that bill.
    What steps do the Boy Scouts take to screen volunteers and 
employees who work with children? And do you conduct background 
checks or do you rely on FBI background checks or do you access 
those; and, if so, how valuable are those checks in keeping 
kids safe?
    Mr. Johnson. If you are talking about the fingerprint-based 
background checks, my understanding is that last year that was 
not funded and that program is gone.
    Senator Franken. Right.
    Mr. Johnson. The Boy Scouts of America did not have access 
to that.
    Senator Franken. Right. We are trying to get that back.
    Mr. Johnson. Yes, sir. Thank you very much. That is very 
important.
    Now, I will say this. From my background in law enforcement 
investigation, criminal background checks is not the sole 
answer. It is a part, one of many tools that we utilize in the 
Boy Scouts of America.
    We have an ongoing process that we think is very important. 
We want families to be involved in the scouting program, but we 
understand that we are a part, with other youth-serving 
organizations, in addressing this risk of child molesters and 
predators accessing youth through our organizations, whether it 
is Boy Scouts or any other organization that serves youth.
    So we onboard information with our parents when they 
initially get involved. There is actually a handbook in the 
front of all of our Cub Scout, Boy Scout, and Webelo guides. We 
have an application process. We check references. There has to 
be an approval at the local level of this individual.
    But the other big part of what we do is two pronged. We 
have what are referred to as scouting's barriers to abuse. You 
cannot review any information from any prevention program that 
is out there and not find some aspect of a Boy Scout policy in 
reference to protecting kids; specifically, our two-deep 
leadership policy and never any one-on-one contact between the 
youth and any of our volunteers. And that is something that 
should spread through society at large.
    What we do, we conduct criminal background checks. We use 
Lexus-Nexus to utilize those. But we realize and we acknowledge 
that that is not the sole answer.
    I have some pens. I would be proud to pass them out. We 
have a motto called ``Youth protection begins with you,'' and 
that is a personal appeal to every parent, every volunteer, 
everybody in society that if you suspect that a child is being 
abused in any way, you have an responsibility to not only stop 
the abuse, but to report it, whether it is to the organization 
or to the authorities, given what has taken place.
    We take that issue very seriously at the Boy Scouts of 
America.
    Senator Franken. But you would like to see these FBI 
background checks again available to organizations that use 
mentors.
    Mr. Johnson. Sir, absolutely.
    Senator Franken. Thank you.
    Mr. Johnson. Every tool that we can have to protect kids, 
we need to have it. And I do not think it is an issue that 
really--I think it is a given, sir. It should be done.
    Senator Franken. Thank you.
    Mr. Johnson. You are welcome.
    Senator Franken. Thank you, Madam Chair. And, again, thank 
you for your leadership on this.
    Senator Klobuchar. Thank you.
    Mr. Vieth, in your written testimony, you stated that it 
would not take much, certainly not a large investment of 
Federal financial resources to fundamentally and forever 
improve the training of child protection professionals.
    I was struck by that statement. And could you explain 
further what you meant and explain why you could do this 
without a big investment?
    Mr. Vieth. Some years ago, we submitted to OJJDP a proposal 
for $3 million over 5 years, 600 per year, and we calculated 
how, within that five years, we could easily put the 
undergraduate reform in 100 universities and the graduate 
reforms in dozens of additional institutions.
    And just think about that for a moment. At Winona State 
alone, we have 450 students in the CAST minor and in the 27 
institutions, we have several thousand students. And as we 
expand this to 100 universities very quickly, all of a sudden, 
tens of thousands of folks will be graduating with the sort of 
knowledge it took the rest of us five or more years of on-the-
job training to acquire.
    So they will be able to handle from the word go every 
aspect of child protection. And we are also teaching them how 
to be community leaders, how to identify what factors are 
contributing to abuse in their community, and then how to 
tailor a prevention program that is uniquely suited to those 
particular dynamics.
    The old adage that you can give someone a fish or teach 
them to fish and the latter is much more effective, if we can 
teach NDTs from the word go how to really buildup their 
programs in individual communities, this would have a 
transformational impact on the country very quickly.
    If you look at my testimony, on pages 32 to 35, we talked 
about the forensic interviewing initiative. Look how quickly 
that spun out over the country, with 20 state programs. And 
those maps show how in each state virtually all of those 
counties very quickly were trained.
    Senator, I was in Pennsylvania two weeks ago, and I was 
having dinner with an MDT, and one of the child protection 
workers told me, ``I have been in the field for a decade, and I 
just went through this program, and it is a night-and-day 
difference of how qualified I am now to do this work.''
    We can begin to do that in college and we can spread those 
reforms quickly and have a huge impact.
    Senator Klobuchar. Very good. I know this concept that 
these classes--this training could be integrated in these 
curriculums makes so much sense to me.
    When you used those letters that I thought were really 
moving about these officers that finally felt they could do it, 
or a prosecutor, do what they had--I think one of the letters 
said pretending they were doing before, what kind of mistakes 
do people make?
    And I will tell you my own experience, luckily, not a 
violent case. I was at a private law firm and we were over 
prosecuting for six months or so misdemeanors for the city of 
Minneapolis. And what I most remember from it was this case we 
had, again, non-violent, but one of the witnesses was five 
years old.
    So I talked to her a little. I did not know quite how to 
handle it. And then I put her up on the witness stand for the 
judge to decide if she was able to give testimony and I asked 
her if she knew the difference between the truth and a lie. And 
this incident had happened when she was four.
    I said, ``Do you know the difference between the truth and 
a lie? '' She said, ``Yes. But when I was four, I told a lot of 
lies.''
    [Laughter.]
    Senator Klobuchar. So I thought, OK, this has not gone like 
it is supposed to go, and she was not allowed to testify.
    So it was such a minor story, but it gives you can example. 
I can just imagine when people do not know how to quite work 
with these kids, what can happen, or maybe even whether or not 
they should be witnesses or not and how you make that 
determination. If you could address that.
    Mr. Vieth. I can give you an anecdote from Minnesota very 
similar to what you are referencing. We consulted on a case 
where a prosecutor in Minnesota called us in a panic and said, 
``My four-year-old child who was sexually abused by her dad was 
just declared incompetent by the judge. What do we do? ''
    So we asked her to have a transcript of the competency 
hearing and we very quickly figured out it was not the four-
year-old who was incompetent, it was the judge. The judge did 
not know how to properly question a preschool-aged child.
    And some of the errors the judge made were this. She asked 
the child, ``If I told you I had a black Labrador at my house, 
would I be telling you the truth or a lie? '' And the child 
said, ``Well, you would be telling me the truth.'' And in the 
judge's order, he cited that and said, ``Well, she should have 
said that `I don't know, I've never been to your house. I don't 
even know if you have a dog.' ''
    That is developmentally inappropriate. The four-year-old is 
just going to assume the judge is telling her the truth. So she 
is going to say absolutely. And there were a whole series of 
questions like that where the judge, well meaning, simply did 
not know how to question a child.
    And if that prosecutor had not known about us--and we spent 
all night--Amy Russell, our deputy director, spent all night 
and did about a 100-page affidavit, going through every single 
question and pointing out how, under research, that every 
question was inaccurate, that child would not have had her day 
in court. The case would have been dismissed.
    But after we did our affidavit, the judge reversed his 
decision and the case was allowed to go forward.
    Senator Klobuchar. I read one study that showed that two-
thirds of public defenders and one-third of prosecutors 
admitted questioning children in a manner designed to confuse a 
child.
    Can you comment on this dynamic? Is that ethical? And how 
do you address this issue in training?
    Mr. Vieth. It is not ethical and it is one reason it is so 
important to get into law schools. I want to commend you for 
your leadership when you were a Hennepin County attorney. You 
worked with us at the MDA and we developed a law school course 
at Hanline specifically on child abuse, and that course has a 
component on ethics, what is the ethical thing to do with a 
child witness.
    It is not covered in current ethics courses. We are not 
examined on ethics, and that is why you get studies like that.
    I once interviewed somebody for a position at the National 
District Attorneys Association and I asked him, ``How do you 
prepare a child for court? '' And he said, ``Well, some people 
think this is a bad idea, but I don't really talk to the child. 
I don't prepare them at all. So they'll be extra-emotional when 
we come to court. And I always make sure I parade them in front 
of the offender and that will double my chance that they're 
going to be emotional.''
    And he actually cited research. He said, ``There's research 
saying most jurors expect a child to be emotional.'' So he 
said, ``Long-term, I'm doing the child a favor.''
    That is just one of many examples I hear across the 
country, and we need to begin to address that in law schools 
and develop some very specific ethical codes for both 
prosecutors and public defenders.
    Senator Klobuchar. Mr. Johnson, I saw you nod your head 
when you were thinking probably of past trials. I was picturing 
you as a police officer getting very mad watching these or you 
understand what can happen in these court cases.
    But if you could address that, as well as what you saw as 
some common mistakes that officers would make without training?
    Mr. Johnson. Senator, you are looking at old school police 
child abuse investigation. I investigated child abuse before 
there was anything called CACs, NDTs, there was anything called 
forensic interviewing, back when police officers and the CPS 
workers just interviewed kids and there was no training. And so 
you just did what you thought.
    And I can tell you--this is a confession, if you will, 
where I would go in--I thought the best practice was to go to 
the child's house and to interview the child in their bedroom, 
get on the floor with them and talk to them in their bedroom, 
not taking into consideration I am probably literally laying on 
the crime scene and a part of the crime scene.
    And I remember--and what is weird about this is this 
worked, but I remember taking my badge off my belt and having 
kids put their hand on the badge and swear to tell me the whole 
truth and nothing but the truth, and then we would talk about 
the details of their victimization, because I understood that 
the details from them about what happened were core and 
critical to my ability to corroborate, set up the opportunity 
to interrogate their father, and then to provide a product for 
prosecutors to prosecute.
    Personally, as a police detective, I think it is 
fundamentally wrong for children to have to testify in a 
criminal court of law, but I realize that and a dollar will not 
get a cup of coffee at Starbuck's. I prepare all my children, 
and I owned them, I probably owned them too much to have to 
prepare in a court of law.
    I have as a goal, as most of us from our team are 
prosecutors, CPS workers and therapists, that we do not want 
them to, but we prepare them to go into a court of law. And 
whether or not we win, get a guilty--and I think you know 
exactly where I am going with this--or whether or not justice 
is served with a sentence, if that child had to testify, we 
felt like we had failed, and that is a goal that we own.
    I think you know personally, any prosecutor knows that has 
been in that courtroom and had to prepare children to do a good 
job to testify in a criminal court of law in front of their 
offending abuser, whether it is a father, a brother or 
whomever, you know what that dynamic is.
    Senator Klobuchar. Very good.
    Mr. Newlin, I understand there are about 800 children's 
advocacy centers around the country, and the national center in 
Alabama has been a model for those centers.
    Can you talk about how they work together and if there is a 
benefit for how they are organized?
    Mr. Newlin. Thank you very much. Yes. Huntsville was the 
genesis of the CAC movement and it quickly began to spread. The 
850, approximate, CACs in the U.S. are organized under the 
National Children's Alliance, which is a national membership 
organization, but all operate independently.
    I think you heard some of the panelists speaking about the 
need for training at the community level, and that is really 
what the CAC movement has been. It has been a grassroots 
movement.
    It has to be supported. It has to be owned by the local 
community, receiving external resources to help that, but it 
has to be a real drive at the local community between law 
enforcement and child protective services and the prosecutors 
and the mental health professionals, and that is well supported 
by the Department of Justice through the Regional Children's 
Advocacy Centers, which do exactly what we have been talking 
about on this panel.
    They go into communities, they provide training and 
technical assistance. They customize that training to exactly 
what the community needs to help those communities be more 
effective in their daily response to child abuse and to work 
more effectively as a team.
    I do think, though, that an important part that we have not 
really--we have talked a lot about the investigation and the 
response to child abuse. I always try to make every decision 
based on what would I want if it was my child.
    And when I think about this, I think I am fully invested in 
the investigation of cases, but we should not lose sight of the 
importance of mental health services for kids to help them 
recover, because if we think about really what helps them heal, 
going to court, having someone prosecuted, it may be helpful 
for them, but that is not their primary focus.
    I do not want us to ever lose focus from the need for us to 
provide evidence-based mental health practices, mental health 
practices that we know will help children heal and recover, 
because that is how we are going to help them be more 
successful as adults.
    Senator Klobuchar. Very good. Thank you very much.
    Ms. Smith, you talked about the Internet part of your work. 
I understand you spend a lot of time focused on safety on the 
Internet. We have been doing some work actually in the VAWA 
bill right now.
    Senator Hutchison and I had a bill that is included to 
update some of our laws for Internet stalking not just 
exclusively for kids, really for anyone. And could you talk a 
little bit about how that has changed some of the child 
protection work and other work that we have done, the new 
technology and how--there are all kinds of issues, as we know, 
with everything from bullying among kids to people stalking 
them to predators on the Internet that later leads to abuse.
    Could you talk about that aspect of this? I am just 
thinking back to some of our early cases when I was county 
attorney, when it was just new with child pornography and 
officers showing up at the scene, turning on the computer and 
then it had been triggered to erase everything on it.
    Ms. Smith. Yes.
    Senator Klobuchar. Things like that. And, obviously, there 
are huge forensics issues across the country about trying to 
train officers in that area, as well.
    Ms. Smith.
    Ms. Smith. Absolutely. Thank you, Senator. That is a 
multifaceted issue. One aspect is how those who would prey on 
children now have one more easy tool to do it. Another one is 
that children are so technology savvy, we have had children--
teenagers in forensic interviews who were texting the 
perpetrator on their phone while in the very early stages of 
this, before we realized we cannot let children go into the 
room with their phones, because we do not know what they are 
going to be doing if they are in love with their perpetrator.
    So from the most minute aspect like that to training first 
responders in a house, do not touch the computer, do not 
destroy evidence, to what the Internet crimes against children 
task forces are seeing.
    And our county established a local metro task force to work 
with the state ICAC, and we did it for a couple of reasons. One 
of them was that we, fortunately, had some people who were 
really good forensic analysts and who could help with that, 
but, also, the detective in that unit came out of 
investigations primarily who were doing crimes against 
children.
    And what they were doing was helping not just the cases 
they were doing, but their own people to recognize that we can 
find incredible amounts of corroboration by investigating what 
technology has out there, but we also can find predators that 
we would not find otherwise, because very often those who are 
using that technology are preying on children and have not 
gotten caught.
    And that is a whole new aspect to the training needs that 
we need to have for--we talk with our forensic interviewers, 
and I am sure Chris' folks are doing this with their training, 
as well, how to incorporate that technology piece in. So that 
technology becomes an aspect of every investigation that we 
consider.
    Whether it is sexual abuse or physical abuse, there will be 
some kind of documentation on those computers of how life is in 
that family or how life is with that child or how that child 
communicates with her friends or his friends, because whatever 
is of interest to him will have been of interest to a 
perpetrator.
    I am not sure if I got exactly where you wanted to go, 
but--it is not?
    Senator Klobuchar. No, it is very good. Thank you very 
much.
    I wanted to thank all of you for being here today. We had, 
I think, a really good discussion. We are working on 
legislation, as all of you know, with my colleagues to make 
sure that we continue the funding for this important training 
work.
    I have just seen it firsthand in Minnesota and am so proud 
of the work that Mr. Vieth does, as well as everyone on this 
panel. And it has really been actually quite a--I meant what I 
said at the beginning. Sometimes people are very bureaucratic 
in their testimony, and this was very personal, which I truly 
appreciated and I think it brought home the enormous need that 
we have here and how we can really be smart about our 
resources, but still make sure these officers are getting 
trained and some of the testimony that came out about the costs 
of this if we do not do anything, just the mere fact that kids 
that grow up in violent homes are--something multiple times, I 
think I have heard the number 76 times more likely to get 
involved in violence themselves; that it is a self-fulfilling 
cycle here if we do not stop it.
    So I want to thank you for what you have done. I want to 
also thank our staff who have worked on this, Craig Kalkut and 
Sammy Clark, as well as Maria Laverdiere, and everything that 
they have done to get this hearing going, as well as the staff 
of the Judiciary Committee; and, Senator Sessions, who could 
not be here today, but is my Ranking Member, and Senator 
Grassley, as well.
    So thank you very much. We will hold the hearing record 
open for a week.
    And with that, the hearing is adjourned. Thank you.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follows.]


                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC] [TIFF OMITTED] T5452.001

    Prepared Statements of Witnesses and Committee and Subcommittee 
                                Chairmen

[GRAPHIC] [TIFF OMITTED] T6011.002

[GRAPHIC] [TIFF OMITTED] T6011.003

[GRAPHIC] [TIFF OMITTED] T6011.004

[GRAPHIC] [TIFF OMITTED] T6011.005

[GRAPHIC] [TIFF OMITTED] T6011.006

[GRAPHIC] [TIFF OMITTED] T6011.007

[GRAPHIC] [TIFF OMITTED] T6011.008

[GRAPHIC] [TIFF OMITTED] T6011.009

[GRAPHIC] [TIFF OMITTED] T6011.010

[GRAPHIC] [TIFF OMITTED] T6011.011

[GRAPHIC] [TIFF OMITTED] T6011.012

[GRAPHIC] [TIFF OMITTED] T6011.013

[GRAPHIC] [TIFF OMITTED] T6011.014

[GRAPHIC] [TIFF OMITTED] T6011.015

[GRAPHIC] [TIFF OMITTED] T6011.016

[GRAPHIC] [TIFF OMITTED] T6011.017

[GRAPHIC] [TIFF OMITTED] T6011.018

[GRAPHIC] [TIFF OMITTED] T6011.019

[GRAPHIC] [TIFF OMITTED] T6011.020

[GRAPHIC] [TIFF OMITTED] T6011.021

[GRAPHIC] [TIFF OMITTED] T6011.022

[GRAPHIC] [TIFF OMITTED] T6011.023

[GRAPHIC] [TIFF OMITTED] T6011.024

[GRAPHIC] [TIFF OMITTED] T6011.025

[GRAPHIC] [TIFF OMITTED] T6011.026

[GRAPHIC] [TIFF OMITTED] T6011.027

[GRAPHIC] [TIFF OMITTED] T6011.028

[GRAPHIC] [TIFF OMITTED] T6011.029

[GRAPHIC] [TIFF OMITTED] T6011.030

[GRAPHIC] [TIFF OMITTED] T6011.031

[GRAPHIC] [TIFF OMITTED] T6011.032

[GRAPHIC] [TIFF OMITTED] T6011.033

[GRAPHIC] [TIFF OMITTED] T6011.034

[GRAPHIC] [TIFF OMITTED] T6011.035

[GRAPHIC] [TIFF OMITTED] T6011.036

[GRAPHIC] [TIFF OMITTED] T6011.037

[GRAPHIC] [TIFF OMITTED] T6011.038

[GRAPHIC] [TIFF OMITTED] T6011.039

[GRAPHIC] [TIFF OMITTED] T6011.040

[GRAPHIC] [TIFF OMITTED] T6011.041

[GRAPHIC] [TIFF OMITTED] T6011.042

[GRAPHIC] [TIFF OMITTED] T6011.043

[GRAPHIC] [TIFF OMITTED] T6011.044

[GRAPHIC] [TIFF OMITTED] T6011.045

[GRAPHIC] [TIFF OMITTED] T6011.046

[GRAPHIC] [TIFF OMITTED] T6011.047

[GRAPHIC] [TIFF OMITTED] T6011.048

[GRAPHIC] [TIFF OMITTED] T6011.049

[GRAPHIC] [TIFF OMITTED] T6011.050

[GRAPHIC] [TIFF OMITTED] T6011.051

[GRAPHIC] [TIFF OMITTED] T6011.052

[GRAPHIC] [TIFF OMITTED] T6011.053

[GRAPHIC] [TIFF OMITTED] T6011.054

[GRAPHIC] [TIFF OMITTED] T6011.055

[GRAPHIC] [TIFF OMITTED] T6011.056

[GRAPHIC] [TIFF OMITTED] T6011.057

[GRAPHIC] [TIFF OMITTED] T6011.058

[GRAPHIC] [TIFF OMITTED] T6011.059

[GRAPHIC] [TIFF OMITTED] T6011.060

[GRAPHIC] [TIFF OMITTED] T6011.061

               Questions from Senator Charles E. Grassley

[GRAPHIC] [TIFF OMITTED] T6011.062

[GRAPHIC] [TIFF OMITTED] T6011.063

[GRAPHIC] [TIFF OMITTED] T6011.064

[GRAPHIC] [TIFF OMITTED] T6011.065

[GRAPHIC] [TIFF OMITTED] T6011.066

                         Questions and Answers

[GRAPHIC] [TIFF OMITTED] T6011.067

[GRAPHIC] [TIFF OMITTED] T6011.068

[GRAPHIC] [TIFF OMITTED] T6011.069

[GRAPHIC] [TIFF OMITTED] T6011.070

[GRAPHIC] [TIFF OMITTED] T6011.071

[GRAPHIC] [TIFF OMITTED] T6011.072

[GRAPHIC] [TIFF OMITTED] T6011.073

[GRAPHIC] [TIFF OMITTED] T6011.074

[GRAPHIC] [TIFF OMITTED] T6011.075

[GRAPHIC] [TIFF OMITTED] T6011.076

[GRAPHIC] [TIFF OMITTED] T6011.077

[GRAPHIC] [TIFF OMITTED] T6011.078

[GRAPHIC] [TIFF OMITTED] T6011.079

[GRAPHIC] [TIFF OMITTED] T6011.080

[GRAPHIC] [TIFF OMITTED] T6011.081

[GRAPHIC] [TIFF OMITTED] T6011.082

[GRAPHIC] [TIFF OMITTED] T6011.083

[GRAPHIC] [TIFF OMITTED] T6011.084

[GRAPHIC] [TIFF OMITTED] T6011.085

[GRAPHIC] [TIFF OMITTED] T6011.086

[GRAPHIC] [TIFF OMITTED] T6011.087

[GRAPHIC] [TIFF OMITTED] T6011.088

[GRAPHIC] [TIFF OMITTED] T6011.089

                Miscellaneous Submissions for the Record

[GRAPHIC] [TIFF OMITTED] T6011.090

[GRAPHIC] [TIFF OMITTED] T6011.091

[GRAPHIC] [TIFF OMITTED] T6011.092

[GRAPHIC] [TIFF OMITTED] T6011.093

[GRAPHIC] [TIFF OMITTED] T6011.094

[GRAPHIC] [TIFF OMITTED] T6011.095

[GRAPHIC] [TIFF OMITTED] T6011.096

[GRAPHIC] [TIFF OMITTED] T6011.097

[GRAPHIC] [TIFF OMITTED] T6011.098

[GRAPHIC] [TIFF OMITTED] T6011.099

[GRAPHIC] [TIFF OMITTED] T6011.100

[GRAPHIC] [TIFF OMITTED] T6011.101

[GRAPHIC] [TIFF OMITTED] T6011.102

[GRAPHIC] [TIFF OMITTED] T6011.103

[GRAPHIC] [TIFF OMITTED] T6011.104

[GRAPHIC] [TIFF OMITTED] T6011.105

    Submissions for the Record Not Printed Due to Voluminous Nature

    Overview of the Portable Guides to Investigating Child 
Abuse: Update 2000 by Janet McNaughton
        http://www.brycs.org/documents/upload/
        portableguides.pdf

                                   



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
